mm
I

C@OCKLE

Le ga ] Brie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-404

DAVID SETH WORMAN, et al.,
Petitioners,

Vv.
MAURAT. HEALEY, IN HER OFFICIAL
CAPACITY AS ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 24th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE CATO INSTITUTE, FIREARMS
POLICY COALITION, FIREARMS POLICY FOUNDATION, CALIFORNIA GUN RIGHTS FOUNDATION, SECOND
AMENDMENT FOUNDATION, CITIZENS COMMITTEE FOR THE RIGHT TO KEEP AND BEAR ARMS, JEWS FOR
THE PRESERVATION OF FIREARMS OWNERSHIP, MADISON SOCIETY FOUNDATION, AND INDEPENDENCE
INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served
by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DAVID B. KOPEL JOSEPH G.S. GREENLEE
INDEPENDENCE INSTITUTE FIREARMS POLICY COALITION
727 East 16th Avenue 1215 K Street, 17th Floor
Denver, CO 80203 Sacramento, CA 95814
(303) 279-6536 (916) 378-5785
david@i2i.org jgt@fpchq.org

Counsel of Record

Subscribed and sworn to before me this 24th day of October, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

an,  C Elle Ode bh, Chale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38832
SERVICE LIST

John Parker Sweeney

Bradley Arant Boult Cummings, LLP
1615 L Street NW

Suite 1350

Washington, DC 20036
jsweeney@bradley.com

(202) 719-8216

Counsel for Petitioners

Julia Eleanor Kobick

Massachusetts Attorney General's Office
1 Ashburton Place

Boston, MA 02108-0000

(617) 963-2559

julia. kobick@state.ma.us

Counsel for Respondents
